                                                            Memorandum
                                                             OFFICE OF THE INSPECTOR GENERAL
                    WASHINGTON, DC 20401


                    DATE:             September 30, 2004

                    REPLY TO
                    ATTN OF:          Joseph J. Verch, Jr., Supervisory Auditor

                    SUBJECT:          Report on Review of GPO’s Regional
                                      Office Structure

                    TO:               Public Printer


                    This report provides the Government Printing Office (GPO) Office
                    of the Inspector General’s (OIG) results of its review of GPO’s
                    regional office structure.

                    EXECUTIVE SUMMARY
                    In meeting its mission of printing government documents and
                    disseminating official information for all three branches of the
                    Federal government, GPO‘s Customer Services Division currently
                    operates 20 field locations – 13 Regional Printing Procurement
                    Offices (RPPOs), 6 Satellite Printing Procurement Offices
                    (SPPOs),1 and the Rapid Response Center in Washington, DC.
                    (See map in Appendix I.)

                    In Fiscal Year (FY) 2003, GPO procured for its customers about
                    124,000 printing orders from private printing contractors (see
                    Appendix II for a breakdown by individual field office) producing
                    revenue of about $440 million. GPO’s field offices procured the
                    majority of these orders (90,000, or 73 percent), compared to the
                    Central Office (33,000, or 27 percent). In FY 2003, the field
                    offices’ revenue totaled $204 million, and the Central Office’s
                    revenue was $235 million. (See Appendix III for each office’s
                    revenues.)


1
    This figure includes the Pittsburgh office, which was recently re-designated from a printing
    procurement office to a field marketing office.


04-08
(243)
        GPO officials are planning to make policy decisions and take
        actions before the end of Calendar Year 2004 regarding the future
        of the field offices.

        For this review, the OIG randomly selected: (a) four GPO field
        offices – Boston, Los Angeles, San Francisco, and San Diego;
        and (b) various customers (Federal agencies) and private printing
        contractors within these regional areas. The OIG Objectives,
        Scope, and Methodology are provided as Exhibit A.

        This report provides the Public Printer with ten factors the OIG is
        recommending he and GPO senior managers consider in making
        near-term and long-term policy decisions regarding GPO’s
        regional office structure:

        1.  Streamline and realign field structure;
        2.  Analyze field office rental costs;
        3.  Analyze affects associated with terminating field office
            rentals;
        4. Analyze customers’ relations with field offices;
        5. Analyze contractors’ relations with field offices;
        6. Analyze field office revenues;
        7. Analyze the volume of processed field office orders;
        8. Allocate Central Office’s costs (overhead) more equitably;
        9. Adjust GPO’s surcharge and other handling charges
            periodically to cover costs; and
        10. Analyze the efficiencies or potential averted fraud that is
            provided by field staff conducting contractor site visits.

        RECOMMENDED FACTORS FOR CONSIDERATION

        Background
        The original mission of the field offices was to “provide more
        expeditious service to customer agencies” in their particular
        areas. When the satellite offices were formed in the 1980s, the
        mission of all field offices was expanded to generate more work
        for GPO. However, the recent history of GPO's 20 field offices to
        serve its Federal customers nationwide has shown mixed results.

        During this OIG review, we contacted 22 Federal agency
        customers, and they expressed a high-level of satisfaction with
        the service the GPO field staff provided. However, the combined
        field offices have shown continuing net losses over the last four


04-08                                                                     2
(243)
                   FYs (2000 – 2003), ranging from $1.7 million to $9.0 million per
                   year. (See Appendix IV for combined field office revenue and
                   expense data.)

                   The OIG notes that use of electronic means (i.e., email, fax, and
                   telephones) to conduct business with customers and contractors
                   has almost obviated the main reason for GPO having a large
                   presence of field offices throughout the country. In fact, the OIG
                   determined that all of the 22 Federal agency customers that were
                   contacted stated that they used email, fax, and telephones to
                   conduct business with GPO's field offices. Similarly, GPO field
                   staff used printing contractors throughout the country and likewise
                   conducted business using email, fax, and telephones.

                   Discussion
                   Opportunities exist to streamline GPO’s presence in the field to
                   provide more efficient operations while maintaining effectiveness.
                   The OIG believes there are ten major factors GPO management
                   should consider before a decision is made concerning the future
                   of GPO’s regional office structure.

                   1.    Streamline and realign field structure.

                         The OIG believes that the Public Printer and GPO
                         management officials should consider realigning their field
                         structure and establish field offices (GPO “Printing Centers”)
                         where the largest amount of Federal printing work is
                         obtained and produced by the private sector.

                         In FY 2003, Maryland and Pennsylvania ranked first and
                         second in the amount of Federal printing work obtained and
                         produced by the private sector.2 Maryland companies
                         produced over $60 million of Federal printing work, while
                         Pennsylvania produced over $48 million. The next eight
                         states receiving the most Federal printing dollars were, in
                         order, California, Ohio, Missouri, New York, Illinois,
                         Kentucky, Virginia, and Georgia. Presently, GPO has nine
                         field offices in eight of the ten states. (See Appendix V for
                         the states and respective GPO field offices.)



2
    From the web site “Whattheythink.com.” Data source: ABC Advisors


04-08                                                                                    3
(243)
        A reduced, streamlined GPO field structure having a limited
        number of “Printing Centers” would provide economic
        efficiencies while providing a regional presence for
        (a) servicing customers plus (b) being available to work with
        private printing contractors.

        For example, four of the five Boston contractors contacted
        stated that they could pick-up customers’ proofs and any
        subsequent authors’ alterations in person which, in turn,
        provides for faster turn-around of final products. For other
        problems, contractors would have a better opportunity to
        discuss these issues face-to-face with GPO printing
        specialists. Further, and equally important, GPO field staff
        can perform necessary press-sheet inspections, pre-award
        surveys, and site visits to ensure contractor compliance with
        GPO regulations.

        The OIG analysis of field office’s orders and revenues
        disclosed that in FY 2003 the majority of the four offices’
        orders (65 – 83%) and three of the four offices’ revenues (52
        – 83%) were generated by using contractors within their
        respective regions. And even the fourth field office (Boston)
        had 41 percent, almost one-half, of its revenues come from
        local contractors. (See Appendix VI for revenues and orders
        data on the four offices.)

        The OIG recognizes that any revision or realignment to the
        regional structure must be in consonance with
        management’s Headquarters “team” concept currently under
        development. GPO management should ensure that the
        revised field structure be closely coordinated and aligned
        with Headquarters’ marketing and procurement teams.

        It should be made clear to all involved parties (i.e., GPO
        staffs as well as customer agencies and printing contractors)
        that the field offices are not in competition with the GPO
        Headquarters teams. To the contrary, the field and
        Headquarters staffs should be reorganized to compliment
        each other for the express purpose of providing quality and
        timely printing products to customers as efficiently and
        effectively as possible. For example, if a Headquarters’
        team focuses on the Department of Defense, Department of
        Homeland Security, or other “security” agencies, a field team



04-08                                                                   4
(243)
             should be located where there is a concentration of business
             from those agencies.

        2.   Analyze field office rental costs.

             The Public Printer and GPO management officials should
             analyze the rental costs of field office space. Presently the
             20 field offices have a combined rental cost of $1.2 million
             annually for over 65,000 square feet of space. The average
             rental cost per square foot is about $20; however, the costs
             vary widely from office to office -- from a low of about $1.50
             per square foot in Oklahoma City to a high of about $44 per
             square foot in New York. (See Appendix VII for rental costs
             and other related data on the field offices.)

             The OIG believes the Public Printer and GPO management
             officials should consider and pursue alternatives to renting
             office space. Alternatives include co-locating with another
             Federal agency, such as is currently occurring with the
             Pittsburgh field office. GPO recently entered into an
             agreement with the Army Corps of Engineers in Pittsburgh
             whereby GPO was afforded no-cost office space while
             providing the Corps with priority, on-site customer service.

             A similar arrangement has been offered to GPO regarding
             GPO’s Boston office. The Department of Defense (DOD)
             has offered to have GPO co-locate with DOD personnel in
             vacant, available space in DOD’s Boston office at no cost.
             Such an arrangement would put an estimated $44,000
             annually in rental costs to better use.

        3.   Analyze affects associated with terminating field office
             rentals.

             The Public Printer and GPO management officials should
             analyze the economic impact of the rental terms of potential
             office closures. The rentals of two offices (New Orleans and
             San Diego) expire on September 30, 2004. All rentals
             require some type of advance notifications (from 120 to 180
             days) or negotiations prior to terminating the field office
             rentals. (See Appendix VII for information on the individual
             field office rental agreements.)




04-08                                                                       5
(243)
             If GPO management officials decide to close any field
             offices, they should first assure that the closures occur
             pursuant to rental terms to prevent paying penalties.

             For example, GPO management officials should consider
             the experience from last year’s bookstore closures as a
             "lesson learned." In particular, the problems that arose
             when the Atlanta bookstore was closed in September 2003,
             but negotiations with the landlord to terminate the rental did
             not take place prior to, or even shortly after, the closure. As
             a result, GPO accumulated a debt of $88,000 to the landlord,
             and the rental costs are still unresolved.

             Similarly in Pittsburgh, GPO gave the landlord the 120-day
             notice approximately nine months after vacating the space in
             January 2004. As a result, GPO has paid an additional
             $16,000 and still is liable for the next four months at a
             monthly payment of $1,805 for a total of $7,220.

        4.   Analyze customers’ relations with field offices.

             The Public Printer and GPO management officials should
             analyze the impact of potential office closures on customers’
             relations. GPO’s Federal agency customers value service
             provided by GPO's nearby field offices. GPO’s field offices
             have enhanced customer service by providing their
             customers with options of submitting printing jobs in person
             as well as of being able to ask questions face-to-face with
             knowledgeable GPO printing specialists.

             For example, in Boston, 9 of the 12 customers contacted
             stated that, besides using email, fax, and telephones, they
             personally visited GPO's field office to conduct business.
             They commented that GPO's field staff was extremely
             helpful by answering questions and providing expert advice
             face-to-face. It is difficult not to conclude that this
             friendliness and expertise from a familiar GPO employee
             provided an enhanced and much valued working relationship
             between Federal customers and GPO.

             Federal customers said that they also valued doing business
             with a nearby GPO field office because local printing
             contractors often were used to do their work. They valued



04-08                                                                     6
(243)
             such close working relationships because they resulted in
             efficiencies and timeliness of their finished products.

             Customers located in different time zones from their GPO
             customer service representative is another very important
             factor GPO officials should consider. For example, 8 of the
             11 customers that do business with the California field
             offices stated that they very much valued having GPO
             printing representatives in their area so they could conduct
             business within the same Pacific Coast Time zone. The
             three-hour time difference between customers on the West
             Coast and GPO staff at the Central Office in Washington,
             DC, would definitely have a negative effect on GPO’s
             timeliness in procuring printing products and providing
             prompt service, especially in handling special customer
             requests for expedited service.

             The other three customers are located in Washington, DC,
             and do business with the San Francisco field office. The
             customers stated they have to adjust their work schedule
             around the three-hour time difference on the West Coast.
             They were willing to adjust their work schedules around the
             time differences to continue to receive quality work.

        5.   Analyze contractors’ interactions with field offices.

             The Public Printer and GPO management officials should
             analyze the impact of potential office closures on
             contractors’ relations. Similar to GPO’s customers, local
             printing contractors used by GPO also valued having GPO
             staff and experts relatively close. Proximity of GPO staff
             close by provided contractors with the option of reviewing
             printing requests rapidly and in person. Contractors could
             also discuss particular print jobs with knowledgeable GPO
             personnel before submitting their quotations or bids.

             In addition, local contractors can pick-up in person
             customers' original proofs and any subsequent alterations
             allowing for quick turn-arounds to meet the customers’ ship
             dates and deadlines.

             For example, four of the five contractors located in the
             Boston area stated they can pick-up and review the request
             for proposal immediately and if they have a problem they


04-08                                                                       7
(243)
             can show the Boston staff the problem, while asking the
             question. One contractor stated that if the Boston field office
             was closed, he would lose all the litigation work that needs
             copying because he would need to look at the folders being
             used to see what type of folding was needed in order to fully
             understand the specifications.

        6.   Analyze field office revenues.

             The Public Printer and GPO management officials should
             analyze the 20 field offices' magnitude of revenues as well
             as the revenue trends.

             For example, over the last four years, the Rapid Response
             Center has had the highest revenues of all field offices,
             ranging from $29 million to $39 million per year. However,
             the Center's revenue trend is down -- from $39 million in FY
             2000 to $31 million in FY 2003 (a decrease of over 20
             percent). San Diego's revenues, on the other hand,
             although relatively low in magnitude, are trending upward --
             increasing 86 percent from $2.25 million in FY 2000 to $4.20
             million in FY 2003. (See Appendix III for individual field
             office revenue figures for FYs 2000 - 2003.)

        7.   Analyze the volume of field office orders processed.

             The Public Printer and GPO management officials should
             consider the volume of orders processed. In the last four
             years, combined orders handled by the field offices generally
             declined, from 102,000 in FY 2000 to 91,000 in FY 2003
             (down about 11 percent).

             On the other hand, some offices have maintained their
             volumes and a few (e.g., Atlanta, Boston, Columbus,
             Charleston, and Hampton) have actually shown increases
             over that period. (See Appendix VIII for the volume of orders
             processed by the individual field offices.)

        8.   Allocate Central Office’s costs (overhead) more
             equitably.

             The Public Printer and GPO management officials should
             analyze the impact of closings on the remaining offices’ net
             incomes before Central Office’s cost allocations (overhead).


04-08                                                                      8
(243)
             GPO’s current methodology for allocating overhead costs to
             all offices (field and headquarters) does not provide an
             accurate or fair picture of cost effectiveness of the individual
             field offices.

             GPO employs three main factors in allocating overhead
             costs: (1) the number of personnel associated with a
             program area; (2) the percent of support services provided to
             the program area; and (3) the square footage. For the field
             offices, square footage is not used in allocating overhead
             because, the OIG was told, the field offices’ rent and utilities
             are considered direct costs.

             Over the last four years, the field offices had shown a profit
             with combined net incomes before overhead allocations
             (revenues minus direct costs) ranging from $2.8 million to
             $8.0 million per year. (See Appendix IV for field office
             combined revenue and expense figures for FYs 2000 -
             2003.) However, over that same period, overhead charged
             to the field offices ranged from $9.7 million to $11.8 million.
             Thus, the offices showed net losses ranging from $1.7
             million to $9.0 million per year.

             It should be noted that closing any office(s) would transfer
             that office’s overhead burden onto the remaining offices,
             including Headquarters operations.

        9.   Adjust GPO’s surcharge and other handling charges
             periodically to cover costs.

             The Public Printer and GPO management officials should
             adjust GPO’s current surcharge and other handling charges
             periodically for procuring Federal agencies’ printing to cover
             all costs. The net losses from the field offices during the
             past four years are also a direct result of the surcharge not
             being set at an appropriate level to cover costs. Since
             October 1999, GPO has assessed customers a surcharge of
             7 percent for procurements totaling up to $285,715 and an
             additional handling charge of $7.50 per purchase order.
             These two charges are ostensibly to cover costs.

             As mentioned above, over the past four years, the field
             offices’ combined experienced income gains (before
             overhead allocations) ranging as high as $8.0 million.


04-08                                                                          9
(243)
            However, after overhead allocations are deducted, they had
            net losses each year. Only 2 of the 20 field offices
            experienced an overall gain in the past four years (Chicago
            and Rapid Response Center). Obviously, the surcharge and
            handling charges were insufficient to cover all of the costs
            associated with GPO’s print work for the other 18 field
            offices.

            Had GPO raised its surcharge between 0.9 percent and 4.8
            percent in the last four years, the combined field offices
            would have broken even. (See Appendix IX for the OIG’s
            calculation of these surcharge increases.) In addition, four
            more individual offices would have shown a net gain (Dallas,
            Denver, Hampton, and Oklahoma City).

            Further, the OIG interviews with 9 of 11 Federal agency
            customers disclosed that, if GPO would increase its
            surcharge by a reasonable amount, these agencies would
            continue to do business with GPO.

        10. Analyzing the efficiencies or potential averted fraud that
            is provided by field staff conducting contractor site
            visits.

            The Public Printer and GPO management officials should
            consider and analyze the efficiencies or potential averted
            fraud that is provided by field staff conducting contractor site
            visits. Such visits provide GPO with beneficial oversight and
            assurances regarding the integrity and quality of GPO’s
            contracted printing procurements. These oversight visits
            also provide important managerial controls that are
            prerequisites for ensuring contractor compliance with basic
            GPO requirements.

            The OIG, Office of Investigations, is aware of two specific
            instances where such visits would have likely prevented
            problems with private printers that had neither the capability
            nor capacity to produce particular quality levels of printing.
            For example, a printing contractor stated that he had the
            necessary equipment to produce “level 4” printing. However,
            upon inspection, the equipment was determined to be fake.
            In the other case, a contractor provided GPO with a bogus
            address as the location of his printing equipment.



04-08                                                                    10
(243)
             Maintaining GPO representatives in the field is an efficient
             and effective alternative to having personnel from
             headquarters make various trips to verify contractors’
             compliance with GPO requirements.

        RECOMMENDATIONS
        In summary, the OIG recommends the Public Printer and GPO
        management officials consider:

        1.   Realigning their field structure and establish field offices
             (GPO “Printing Centers”) where the largest amount of
             Federal printing work is obtained and produced by the
             private sector (0408-01);

        2.   And pursue alternatives to renting office space (0408-02);

        3.   Analyzing the economic impact of the rental terms of
             potential office closures (0408-03);

        4.   Analyzing customers' relations impact from potential office
             closures (0408-04);

        5.   Analyzing contractors’ relations impact from potential office
             closures (0408-05);

        6.   Analyzing the 20 field offices' magnitude of revenues as well
             as the revenue trends (0408-06);

        7.   Analyzing the volume of field office orders processed (0408-
             07);

        8.   Allocating Central Office’s cost allocations more equitably
             (0408-08);

        9.   Adjusting GPO’s surcharge and other handling charges
             periodically to cover costs (0408-09); and

        10. Analyzing the efficiencies or potential averted fraud that is
            provided by field staff conducting contractor site visits (0408-
            10).




04-08                                                                       11
(243)
        MANAGEMENT RESPONSE
        On September 24, 2004, a draft of this report was provided to the
        Managing Director of Customer Services for review and comment.
        In response to that draft, he concurred with nine and non-
        concurred with one of our recommendations. For the non-
        concurrence, he commented that realigning field offices to be
        closer to contractors is contrary to GPO’s focus on customer
        service and ensuring the interests of GPO’s customers. (See
        Exhibit B for the Managing Director’s comments.)

        The OIG believes that the Public Printer should still consider this
        recommendation as another factor to consider in the review of the
        regional office structure.

        Mr. Joseph Verch, Supervisory Auditor, Ms. Patricia Mitchell,
        Auditor, and Ms. Tracie Briggs, Auditor, conducted this review.
        The OIG appreciates the cooperation and courtesies extended
        during the review by the Customer Services officials and staff
        from the Boston, Los Angeles, San Diego, San Francisco field
        offices, and the Regional Operations Office. In addition, the OIG
        also appreciated the cooperation and information provided by
        personnel from the Offices of the Comptroller, Budget, and
        Information, Technology, and Systems.




        JACKIE A. GOFF
        ACTING INSPECTOR GENERAL


        By: ________________________________
            Joseph J. Verch, Jr., Supervisory Auditor




04-08                                                                   12
(243)
                                           APPENDIX I
                                           PAGE 1 OF 1

                                     MAP




Source: Regional Operations Office


04-08                                                13
(243)
                                                              APPENDIX II
                                                              PAGE 1 OF 1

            TABLE 1 – FIELD OFFICES’ ORDERS PROCESSED
                              (FY 2003)

                                                        Percent
           No.          Field Office        Orders      of Total
            1    Atlanta                     10,961        12%
            2    Seattle                      7,719         8%
            3    Columbus                     7,552         8%
            4    Hampton                      7,501         8%
            5    Rapid Response Center        6,901         8%
            6    Denver                       6,474         7%
            7    Dallas                       5,911         7%
            8    St. Louis                    4,495         5%
            9    Chicago                      4,368         5%
           10    Boston                       3,631         4%
           11    San Francisco                3,561         4%
           12    San Diego                    3,370         4%
           13    Charleston                   3,243         4%
           14    Philadelphia                 3,079         3%
           15    New York                     2,996         3%
           16    Oklahoma City                2,908         3%
           17    Los Angeles                  1,951         2%
           18    San Antonio                  1,811         2%
           19    New Orleans                  1,694         2%
           20    Pittsburgh                     751         1%
                 Total Field Offices         90,877       100%

    TABLE 2 – FIELD AND CENTRAL OFFICE’S ORDERS PROCESSED
                            (FY 2003)

                                                        Percent
           No.         Central Office       Orders      of Total
            1    Field Offices               90,877        73%
            2    Central Office              32,948        27%
                 Total Central Offices      123,825       100%

Source: Printing Procurement’s Regional Operations Web Site – Report of the
        Regional Printing Procurement Offices Number of Orders October
        2002 thru September 2003 – FY03 (All Offices Combines)



04-08                                                                     14
(243)
                                                                APPENDIX III
                                                                PAGE 1 OF 1

                      TABLE 1 – FIELD OFFICES’ REVENUES
                                (FYs 2000 – 2003)

No         RPPO         FY2000       FY2001       FY2002       FY2003
 1   Rapid Response    $39,229,344 $29,052,881 $32,587,584 $30,751,267
 2   Chicago*          $28,132,794 $30,852,577 $34,139,335 $28,106,304
 3   Atlanta*          $19,316,857 $17,816,265 $21,515,509 $24,255,205
 4   Columbus*         $18,290,233 $18,551,107 $19,840,435 $16,459,710
 5   Denver            $15,655,274 $16,286,561 $15,000,965 $13,733,156
 6   Dallas*           $13,640,886 $15,473,011 $12,360,912 $14,755,646
 7   Hampton*          $10,533,869 $12,184,516    $9,945,364 $12,511,952
 8   Seattle           $11,063,507 $10,611,762    $9,659,233 $10,001,030
 9   Philadelphia      $12,603,472   $9,460,505   $8,094,989   $9,280,470
10   St. Louis          $9,991,255   $9,848,558   $8,869,542   $7,864,530
11   San Francisco     $10,968,200   $9,639,306   $8,724,802   $6,671,107
12   New York           $6,506,391   $6,462,371   $5,682,410   $5,428,209
13   Los Angeles*       $4,471,918   $4,793,176   $5,009,805   $5,053,140
14   Charleston         $4,815,796   $5,025,046   $3,429,356   $2,192,244
15   Oklahoma City      $4,534,232   $3,643,607   $3,585,309   $3,424,237
16   San Antonio        $5,354,365   $3,920,328   $2,948,796   $2,595,435
17   Boston             $3,702,389   $2,840,622   $3,507,965   $3,070,002
18   San Diego*         $2,254,374   $2,754,125   $3,175,775   $4,202,308
19   New Orleans        $3,516,503   $2,833,373   $2,091,954   $2,237,656
20   Pittsburgh         $2,410,882   $2,321,003   $2,139,029   $1,565,222
     Totals           $226,992,543 $214,370,700 $212,309,069 $204,158,830

 * Chicago, Atlanta, Columbus, Dallas, Hampton, Los Angeles, and San
   Diego were the seven field offices that showed an increase in at least 2 of
   the last 3 FYs (2001 - 2003).

                    TABLE 2 – CENTRAL OFFICES’ REVENUES
                               (FYs 2000 – 2003)

No     Division         FY2000       FY2001       FY2002       FY2003
 1 Term Contracts     $134,014,000 $134,926,000 $132,042,000 $117,330,000
 2 Purchase           $194,674,000 $123,095,000 $125,745,000 $118,051,000
   Totals             $328,688,000 $258,021,000 $257,787,000 $235,381,000

 Source: Comptroller’s YTD Statement of Revenue & Expense by Cost Code
         (201.201) for FYs 2000 – 2003.


 04-08                                                                      15
 (243)
                                                                                APPENDIX IV
                                                                                PAGE 1 OF 1

                                20 FIELD OFFICES’ COMBINED REVENUE
                                      AND EXPENSE STATEMENTS
                                           (FYs 2000 – 2003)

      Description          FY2000       FY2001       FY2002       FY2003                  4-year Totals
(a)    Revenue           $226,992,543 $214,370,700 $212,309,069 $204,158,830               $857,831,142
          Total
       Expenses
         Before
(b)   Allocations        $220,177,066 $206,396,472 $208,242,834 $201,377,215              $836,193,587
      Net Income
         Before
      Allocations
(c)       (a-b)             $6,815,477           $7,974,228    $4,066,235    $2,781,615    $21,637,555
      Other Cost
(d)   Allocations3          $9,696,837           $9,707,649   $10,355,314   $11,758,395    $41,518,195
          Total
       Expenses
(e)       (b+d)          $229,873,903 $216,104,121 $218,598,148 $213,135,610              $877,711,782
      Net Income
           (a-e)         <$2,881,360> <$1,733,421> <$6,289,079> <$8,976,780> <$19,880,640>




         Source: Comptroller’s YTD Statement of Revenue & Expense by Cost Code
                 (201.201) for FYs 2000 – 2003.
         3
             Central Office’s costs (overhead)


         04-08                                                                              16
         (243)
                                                            APPENDIX V
                                                            PAGE 1 OF 1

           FIELD OFFICES LOCATED IN THE TOP 10 STATES
         THAT OBTAINED THE MOST FEDERAL PRINTING WORK
                           IN FY 2003

   No.                               Field Office               Region
    1    Maryland       Rapid Response                            3
    2    Pennsylvania   Philadelphia                              2
    3    California     San Francisco, Los Angeles, San Diego     9
    4    Ohio           Columbus                                  5
    5    Missouri       St. Louis                                 6
    6    New York       New York                                  2
    7    Illinois       Chicago                                   5
    8    Kentucky       Columbus                                  5
    9    Virginia       Hampton                                   3
   10    Georgia        Atlanta                                   4




Source: From the web site “Whattheythink.com”



04-08                                                                    17
(243)
                                                                   APPENDIX VI
                                                                   PAGE 1 OF 1

              ORDERS AND REVENUES FROM AWARDS TO CONTRACTORS
                      BY THE FOUR FIELD OFFICES SAMPLED
                                   (FY 2003)


                                Within Region                   Outside Region
           Field           Orders                            Orders
No.        Office         Awarded         Revenue           Awarded        Revenue
                         No.     %     Amount     %        No.     %     Amt     %
1     Boston            2,454   66%        $1.4 41%       1,250   34%     $2.0   59%
2     Los Angeles       1,522   83%        $3.9 83%         414   21%     $0.8   17%
3     San Diego         2,194   65%        $2.0 53%       1,171   35%     $1.8   47%
4     San Francisco     2,558   65%        $3.2 52%       1,377   35%     $2.9   48%
         Average        2,182   70%        $2.6 57%       1,053   30%     $1.9   43%




      Source: Procurement Information Control System – Report of Boston, Los
              Angeles, San Francisco, and San Diego Offices FY2003 Jobs by
              States October 2003 through September 2003.



      04-08                                                                    18
      (243)
                                                                                        APPENDIX VII
                                                                                        PAGE 1 OF 1

                                        FIELD OFFICES’ RENTALS

                                       Rental         Expire         Annual                       Cost/
                                     Expiration       Notice4        Rental          Square     Square
No.              RPPO                   Date          (days)         Costs           Footage    Footage
 1        Denver                      07/31/07         120          $159,187           14,539    $10.95
 2        New York                    09/30/07         120          $146,950            3,345    $43.93
 3        Chicago                     10/08/05        Negot*        $115,902            4,000    $28.98
 4        Philadelphia                11/30/06        Negot*         $97,213            5,000    $19.44
 5        Rapid Response**            09/30/03         120           $86,112            3,753    $22.94
 6        Columbus                    10/03/05        Negot*         $84,690            5,247    $16.14
 7        St. Louis                   05/31/06         120           $78,712            3,050    $25.81
 8        Dallas                      09/30/05         120           $75,902            3,377    $22.48
 9        San Francisco               09/30/06        Negot*         $70,933            4,300    $16.50
10        Seattle                     07/31/05         120           $58,791            2,743    $21.43
11        Atlanta                     06/30/07        Negot*         $60,578            4,355    $13.91
12        Boston                      11/30/07        Negot*         $44,737            2,175    $20.57
13        Los Angeles                 06/30/05        Negot*         $42,593            1,878    $22.68
14        Hampton                     10/31/05        Negot*         $36,506            2,500    $14.60
15        San Diego                   09/30/04         120           $29,400            1,409    $20.87
16        New Orleans                 09/30/04         120           $17,322            1,179    $14.69
17        Charleston                  Indefinite       180           $13,980            1,500     $9.32
18        San Antonio                 Indefinite       180            $3,872            1,100     $3.52
19        Oklahoma City               Indefinite       180            $3,000            1,958     $1.53
20        Pittsburgh***               12/01/09         120           $21,660            1,265    $17.12
                       Totals                                     $1,248,040           68,673    $18.17

      * Negotiate with the landlord.
      ** The rental has continued on a month to month basis.
      *** The space has been empty since January.




      Source: Customer Services’ Regional Operations Office and Acquisition Office


      4
          Advance notice needed to let the landlord that GPO will be terminating the rental.


      04-08                                                                                       19
      (243)
                                                             APPENDIX VIII
                                                             PAGE 1 OF 1

                     VOLUME OF ORDERS PROCESSED
                     IN THE INDIVIDUAL FIELD OFFICES
                              (FYs 2000 – 2003)

              Field                                                Average
No.           Office       FY2000   FY2001    FY2002    FY2003    (FY01-03)
 1      Atlanta *          10,436    10,185     9,660    10,961     10,269
 2      Seattle             9,465     8,817     7,074     7,719      7,870
 3      Rapid Response      8,214     7,517     7,571     6,901      7,330
 4      Hampton *           7,278     6,524     6,664     7,501      6,897
 5      Columbus *          6,996     5,673     6,249     7,552      6,491
 6      Dallas*             6,294     6,824     6,324     5,911      6,353
 7      Denver              8,007     7,016     4,478     6,474      5,989
 8      Chicago             6,225     6,460     4,639     4,368      5,156
 9      St. Louis           6,193     4,407     4,273     4,495      4,392
10      San Francisco       3,720     3,625     3,452     3,561      3,546
11      Boston *            3,487     3,496     3,445     3,631      3,524
12      Charleston *        3,026     3,728     3,579     3,243      3,517
13      New York            3,856     3,518     2,580     2,996      3,031
14      Philadelphia        3,172     2,846     3,052     3,079      2,992
15      San Diego *         3,491     2,909     2,685     3,370      2,988
16      Oklahoma City       2,732     2,663     2,500     2,908      2,690
17      Los Angeles         2,852     2,408     2,366     1,951      2,241
18      New Orleans         2,571     2,412     1,460     1,694      1,855
19      San Antonio         2,554     1,638     1,600     1,811      1,683
20      Pittsburgh          1,393     1,328     1,340       751      1,140
                   Totals 101,962    93,994    84,991    90,877     89,954
         % Drop Since
             FY2000                  7.8%     16.6%     10.9%

* Atlanta, Hampton, Columbus, Boston, Charleston, and San Diego field
  offices showed an increase in processed orders between FYS 2000 and
  2003.



Source: Printing Procurement’s Procurement Analysis & Review Staff’s Report
        on the Statistics for the Printing Procurement Department FYS 2000
        and 2003




04-08                                                                    20
(243)
                                                          APPENDIX IX
                                                          PAGE 1 OF 1

                INCREASE NEEDED IN GPO’S SURCHARGE
                       TO OFFSET NET LOSSES
                          (FYs 2000 – 2003)

  Description     FY2000        FY2001        FY2002        FY2003

    Paid to
  Contractors $207,209,012 $193,615,984 $195,094,628 $187,755,739

  Net Income    <$2,881,360> <$1,733,421> <$6,289,079> <$8,976,780>

  % to Cover       1.4%          0.9%          3.2%          4.8%
   Losses




Source: Comptroller’s YTD Statement of Revenue & Expense by Cost Code
        (201.201) for FYs 2000 – 2003.




04-08                                                                   21
(243)
                                                                 EXHIBIT A
                                                                 PAGE 1 OF 2


                 OBJECTIVES, SCOPE, AND METHODOLOGY

The primary objective of this OIG performance audit was to review the Printing
Procurement’s regional structure of the 20 Field Offices in maintaining GPO’s
printing procurement services closer to Federal agencies in accordance with
GPO Publication 305.3 Printing Procurement Regulation and GPO Instruction
825.18A Internal Control Program.

The OIG randomly selected 4 field offices from 2 of the 10 Regions to determine
what corrective action needs to be taken to rectify this economical downswing.
We reviewed the records and visited with the personnel from the Boston RPPO
in Region 1 and the three California Offices (Los Angeles RPPO, San Francisco
RPPO, and the San Diego SPPO) in Region 9.

Audit fieldwork was conducted during the period of January through June 2004 in
accordance with generally accepted Government auditing standards.

To meet the objectives of the audit, the OIG audit team:

•   Interviewed Customer Services employees from the offices of the ROO,
    Boston, Los Angeles, San Diego, and San Francisco on maintaining GPO’s
    printing procurement services closer to Federal agencies in Regions 1 and 9;

•   Interviewed customer agencies in Regions 1 and 9;

•   Interviewed contractors in Region 1;

•   Reviewed and analyzed annual orders processed for the last 4 fiscal years in
    the 10 Regions;

•   Reviewed and analyzed annual revenues and operating costs for the 4 fiscal
    years in the 10 Regions;

•   Analyzed the number of full-time employees assigned to the number of
    employees on hand in the 5 SPPOs;

•   Assessed the monitoring of the RPPO and reviewing management incentives
    to generate new business and reduce costs in Regions 1 and 9; and




04-08                                                                            22
(243)
                                                                    EXHIBIT A
                                                                    PAGE 2 OF 2

•   Determined the amount of business performed by printers in Regions 1 and 9
    to the printers located in the other regions.

In the course of our work, we also assessed the susceptibility of various aspects
of printing procurement services in Regions 1 and 9 to fraud, waste, and abuse.
In addition, we reviewed the following publications and instructions that contained
procedures and policies that ROO and Region 1 and 9 employees followed:

•   GPO Instruction 825.18A Internal Control Program to identify policies,
    standards, and responsibilities for conducting internal control reviews of GPO
    programs; and

•   GPO Publication 305.3 Printing Procurement Regulation revised April 2001 to
    identify the cost principles used by GPO’s contracting officers and printing
    specialists.




04-08                                                                           23
(243)
                                EXHIBIT B
                                PAGE 1 OF 2

        MANAGEMENT’S COMMENTS




04-08                                     24
(243)
        EXHIBIT B
        PAGE 2 OF 2




04-08             25
(243)
                          u. s. GOVERNMENT
                           P R.INTING       OFFICE
                           KEEPING AMERICA INFORMED



  DATE:September 30, 2004
REPLY TO

ATTN
   OF:Managing Director, Customer Services

SUBJECT:
     Draft Report on Review of GPO's Regional Office StructUre

      TO:JosephVerc~ Supervisory Auditor, Office of Audits


           This memorandumis in responseto the draft "Report on Review of GPO's Regional Office
           Structure" that you made available to me on September27, 2004. In addition to my specific
           comments below, I have attachedthe comments obtained from the Regional Operations Office.

           Recomm~ndation1: Non-concur. The Public Printer's focus is on customer service and, as
           such; the former printing procurement function was moved under the Customer Services
           organization to ensure that the interests of GPO's customersare placed aheadof the those of
           the contractors'. There is also a long-held belief by some customers that GPO traditionally
           looks out for its contractors before it takes care of its customers. We are working hard to
           disspellthis belief. Moving field offices to be nearerto contractors would simply not be in
           concert with that goal. Fina11y,thereappearsto be no economic benefit to be gained from such
           relocations.

           Recommendation
                        2:1: Concur

           Recommendation8: Concur with Comment: The allocations to field locations were just
           revised to the benefit of the field offices during the past 6 months. Such allocations are
           controlled by the CFOand Customer Serviceshas no input or participation in the process.

           Recommendation 9-10: Concur
                                  .,


           _t\1soof significant note is your statementthat we are paying $121.61 per square foot for 528
           square feet of office space in Seattle, along with the subsequentdiscussionof this issue. These
           statementsare incorrect and illogical as the 9 staff in this office could not possibly work in 528
           squarefeet. As noted in the attachedmaterial, we are renting 3)059 squarefeet at $22.00 per
           squarefoot.

           The space in the former Pittsburgh Satellite Printing ProcurementOffice could not be released
           until the staffer moved to spaceprovided by the Corps of Engineers during the 2ndquarter of
           the fiscal year. Additionally we wanted to determine if the new arrangementin non-GPO
           spacewould supportthe developing salesand marketing activities. This leased spacehas now
           beenreleasedto GSA.
 Page2


 Thankyou for the opportunityto respondto the draft report, If you haveanyquestions,please
 call me on ext, 20111,


/':, : .r<_.IJi",
~~--r
 Jlttachment
